No. 19AIN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES DEPARTMENT OF JUSTICE, APPLICANT
v.
COMMITTEE ON THE JUDICIARY, UNITED STATES
HOUSE OF REPRESENTATIVES
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR A STAY PENDING THE FILING AND DISPOSITION OF A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE DISTRICT OF COLUMBIA CIRCUIT AND REQUEST FOR AN
ADMINISTRATIVE STAY, via email and first-class mail, postage prepaid, this 7th day of
May, 2020.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 7, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19AUNITED STATES DEPARTMENT OF JUSTICE
COMMITTEE ON THE JUDICIARY, UNITED STATES
HOUSE OF REPRESENTATIVES
DAVID N. LETTER
US HOUSE OF REPRESENTATIVES
OFFICE OF THE GENERAL COUNSEL
219 CANNON HOUSE OFFFICE BUILDING
WASHINGTON, DC 20515
DOUGLAS.LETTER@MAIL.HOUSE.GOV

